HHS/OIG-Audit--"Reimbursement Patient Care Costs at the National Institutes of Health's Clinical Center, (A-15-92-00011)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Reimbursable Patient Care Costs at the National Institutes of Health's
Clinical Center," (A-15-92-00011)
October 24, 1995
Complete Text of Report is available in PDF format
(1.5 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that standard medical care is provided at no charge
to research patients at the National Institutes of Health (NIH) Clinical Center
for treatment for medical conditions unrelated to research. Moreover, standard
medical care was provided to some patients who were not even participating in
research. We believe such care should be billable to insurers and other third
party payers. We recommended that: (1) NIH modify its accounting and information
systems to collect the full cost of treating patients, (2) segregate research
costs from nonresearch care costs by patient, (3) collect insurance and financial
information from patients, and (4) seek authority to charge for nonresearch
care provided to patients. The Public Health Service (PHS) forwarded our report
to a workgroup established to review activities of the Department, including
operations of the Clinical Center, under REGO II (the second phase of the National
Performance Review's efforts to reinvent Government). The PHS will revisit our
recommendations in conjunction with those of the workgroup to determine an appropriate
course of action.